           DOD INTERNET PRACTICES AND POLICIES


Report No. D-2001-130                      May 31, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD, Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronym
OMB                   Office of Management and Budget
                       Office of the Inspector General, DoD
Report No. D-2001-130                                                 May 31, 2001
  (Project No. D2001AB-0065)

                      DoD Internet Practices and Policies
                               Executive Summary

Introduction. This report is in response to Section 646 of the Treasury and General
Government Appropriations Act, 2001, as contained in Public Law 106-554
Consolidated Appropriations Act. Section 646 requires the Inspector General to submit
a report to Congress that discloses DoD activity on collecting, creating, sharing, and
reviewing personally identifiable information about individuals and their viewing habits
at Government web sites.

The Office of Management and Budget and DoD issued policy on privacy and data
collection activities at Government web sites. That policy prohibits the use of web
technology to collect identifying information to build profiles on individuals, and
prohibits the use of persistent cookies unless certain conditions are met, including
obtaining the personal approval of the head of the agency. That authority for DoD is
the Secretary of Defense. Examples of the information-gathering technology are
“persistent cookies,” “third-party cookies,” and “web bugs.” Persistent cookies are a
short string of text sent by a web server and stored on a user’s computer until a future
expiration date. Third-party cookies are placed by a web site other than the site being
visited. Web bugs are almost invisible graphics included on a web site or in an e-mail
message that are designed to monitor those who visit the web site. Policy also requires
the display of a privacy notice at principal web sites and locations where substantial
personal information is collected from visitors. A privacy notice should inform visitors
that the web site is public information and uses software programs to monitor for
prohibited activities. In addition, the privacy statement should provide a point of
contact for the web site.

Objectives. Our objective was to evaluate the DoD practices and policies on
personally identifiable information gathered on individuals who access DoD Internet
web sites.

Results. DoD issued privacy and data collection policy on DoD public web sites and
took steps to validate compliance with Office of Management and Budget guidance on
privacy. However, for 400 DoD Internet web sites reviewed, we identified:
 • 128 persistent cookies, of which 38 were third-party commercial cookies, and
    7 contained known web bugs.
 • 100 sites that did not contain a privacy notice.
 • 61 of 80 sites that requested voluntary personal information and did not contain a
    privacy notice.

Further, DoD was unaware of how commercial companies store, protect, and market
information collected from DoD web sites. As a result, DoD Components and
commercial companies supporting the web sites knowingly and unknowingly collected
information on individuals without providing adequate disclosures in a privacy
statement and without the approval of the Secretary of Defense. We did not specifically
identify the type of information collected. Also, previous DoD assurances to the Office
of Management and Budget that the requisite policies had been fully implemented were
premature. For details of the audit results, see the Finding section of the report.
Management Actions. All 36 web masters whose sites contained collection devices
agreed to remove the persistent cookies and web bugs, or remove the web site from the
Internet. The web masters also agreed to verify that corrective actions were taken. In
addition, on April 26, 2001, DoD updated the “DoD Web Site Administration Policies
and Procedures,” December 7, 1998, to incorporate changes in the Office of
Management and Budget policy on privacy, data collection, and the use of cookies at
Federal web sites. The April 26, 2001, policy update is in Appendix B.

Summary of Recommendations. We recommend that the Assistant Secretary of
Defense (Command, Control, Communications and Intelligence), in consultation with
the Defense Privacy Office, require the DoD Components to report on their actions to
distribute DoD privacy and data collection policy to their web masters, provide their
web masters with instructions to identify data collection devices, eliminate third-party
cookies and other data collection devices, post privacy notices at major entry points to a
site and at sites where substantial personal information is collected from the public,
hold web masters accountable for compliance with DoD and Office of Management and
Budget data collection policy on a continuing basis. We also recommended that the
Assistant Secretary of Defense (Command, Control, Communications and Intelligence)
revise the DoD Web Site Administration Policy to clearly show that the policy on the
use of persistent cookies applies to non-user-identifying information and user-
identifying information.

Management Comments. The Deputy Assistant Secretary of Defense (Security and
Information Operations) who responded for the Assistant Secretary of Defense
(Command, Control, Communications and Intelligence) partially concurred with the
recommendations and provided a completion date of August 31, 2001. He agreed that
DoD used persistent cookies but that our report did not necessarily support a conclusion
that the persistent cookies were being used to collect user-identifying information. The
Director, Defense Privacy Office, stated that the report did not address whether the
information collected was user-identifying data and whether the data were used in a
prohibited manner or used to build profiles or track visitors’ activities. The Director
stated that the report assumed the web sites visited were principal web sites, known
major entry points, or sites where substantial personal information is collected and
therefore required privacy statements. The Deputy Assistant Secretary and the Director
suggested changes to the report to consider recent policy changes and other points. The
Finding section of the report contains a discussion of management comments. The
complete text of management comments is in the Management Comments section.

Audit Response. Management comments to the recommendations were responsive.
We acknowledge that our review did not specifically identify what type of information
was collected. However, our review focused on whether collection devices, such as
persistent cookies, existed at the web sites. As stated in the Office of Management and
Budget policy, even if persistent cookies did not themselves contain personally
identifiable information, such cookies can often be linked to a person after the fact,
even where that was not the original intent of the web master. The Office of
Management and Budget policy clearly applies to all uses of persistent cookies because
by their very nature those cookies collect some type of information based on visits
made by individuals to a web site. We used the Internet web sites listed in the
Government Information Locator Service because it is the single entry point where the
public can locate, access, and obtain DoD information. We made changes to the report
based on the Director and Deputy Assistant Secretary comments. We revised and
added recommendations. Accordingly, we request additional management comments
by July 2, 2001.



                                            ii
Table of Contents

Executive Summary

Introduction
     Background                                                         1
     Objectives                                                         2

Finding
     DoD Internet Access, Practices, and Policies                      3

Appendixes
     A. Audit Process
         Scope and Methodology                                         13
         Prior Audit Coverage                                          14
     B. Revision to DoD Web Site Administration Policy                 15
     C. Report Distribution                                            21

Management Comments
     Office of the Assistant Secretary of Defense (Command, Control,
        Communications and Intelligence)                               23
     Defense Privacy Office                                            26
Background
    Section 646 of the Treasury and General Government Appropriations Act
    2001. As contained in Public Law 106-554, the Consolidated Appropriations
    Act requires the Inspector General of each Government Department to submit a
    report to Congress that discloses the agency’s activity on collecting or reviewing
    singular data, or the creation of aggregate lists that include personally
    identifying information, about individuals who access the Department’s Internet
    web sites. In addition, the Inspectors General must report agency activities
    relating to agreements with third parties, including other Government agencies,
    to collect, review, and obtain aggregate lists or singular data of personally
    identifiable information relating to an individual’s access or viewing habits.

    Internet Web Site. Congressional officials defined an Internet web site as an
    agency’s principal web site, as well as any other major entry point that includes
    home pages of agency components and web sites that receive a high number of
    visits, and any web site where substantial amounts of personal information are
    collected or posted. Involuntary information can be collected through the use of
    cookies and web bugs.

            Cookies. Cookies are short strings of text sent by a web server and
    stored on a user’s system so it can later be read back from that system. Using
    cookies is a convenient technique for having the browser remember some
    specific information. Two types of cookies are used: domain and third-party.
    Domain cookies are placed by the visited web site. Third-party cookies are
    placed by a web site other than the site being visited. Cookies may also be
    either session or persistent cookies. Session cookies are short-lived and expire
    once the user exits the browser, whereas persistent cookies have specific
    expiration dates and remain on the client’s computer until the specified
    expiration date. Persistent cookies can be used to track users’ browsing
    behavior by identifying user’s Internet web addresses.

            Web Bug. A web bug is an invisible graphic included on a web site or
    in an e-mail message designed to monitor who visits the web site or reads e-mail
    messages. Web bugs may be used to add information to a personal profile of
    what sites a person is visiting. Other uses of web bugs include counting the
    number of people that visit a particular site, and gathering statistics about
    browser usage at different places on the Internet. Web bugs are not readily
    visible because they are very small.

    Office of Management and Budget Privacy Policy. The Office of
    Management and Budget (OMB) Memorandum M99-18, “Privacy Policies on
    Federal Web Sites,” dated June 2, 1999, directed agencies to post clear privacy
    policies on world wide web sites, at other known major entry points to the site,
    and on any web page where substantial personal information is collected from
    the public. The policy states that, if an agency collects information, it must
    disclose the information collected and why and how it will be used.

    OMB Memorandum M-00-13, “Privacy Policies and Data Collection on Federal
    Web Sites,” dated June 22, 2000, reaffirmed the June 1999 memorandum and


                                        1
     prohibits the use of cookies unless there is a compelling need to collect the data,
     a conspicuous notice is given by the collection activity, appropriate and publicly
     disclosed privacy safeguards are implemented for handling the data, and the
     collection is personally approved by the head of the agency. In the
     memorandum, OMB requested that all Federal agencies, as part of the agency
     budget submission, describe their privacy policy and steps to ensure compliance
     with the OMB guidance. On September 5, 2000, OMB issued clarifying
     guidance stating that the June 2000 guidance would apply to persistent cookies
     only.

     DoD Privacy Guidance. Two years before OMB issued its policy on posting
     privacy notices, DoD had promulgated policies in that area in “Web Site
     Administration,” December 7, 1998. Three years before OMB issued its policy
     on cookies, DoD established policies on collection of user-identifying
     information and the use of cookies in “Establishing and Maintaining a Publicly
     Accessible Department of Defense Web Information Service,” July 18, 1997.
     Upon receipt of OMB Memorandum M-00-13, which reaffirmed its policy on
     privacy notices and established its cookie policy, DoD again issued privacy and
     data collection policy on DoD public web sites and took steps to validate
     compliance with OMB guidance on privacy.

     DoD Memorandum, “Privacy Policies and Data Collection on DoD Public Web
     Sites,” July 13, 2000, requires the display of a privacy notice at principal web
     sites and at locations where substantial personal information is collected from
     visitors. The policy does not permit the use of web technology to collect
     identifying information to build profiles on individuals. Also prohibited is the
     use of persistent cookies without notification in the privacy statement of what is
     being collected and how it would be used. In addition, the use of a persistent
     cookie must be personally approved by the Secretary of Defense.

     On April 26, 2001, DoD updated the “DoD Web Site Administration Policies
     and Procedures,” December 7, 1998, to incorporate changes in the Office of
     Management and Budget policy on privacy, data collection, and the use of
     cookies on Federal web sites. The changes prohibited the use of persistent
     cookies unless specific conditions were met and required the personal approval
     of the Secretary of Defense. The changes in part restated the July 13, 2000,
     memorandum on privacy. The changes are included in Appendix B.

Objectives
     Our objective was to evaluate the DoD practices and policies on personally
     identifiable information gathered on individuals who access DoD Internet web
     sites. See Appendix A for a discussion of the audit scope and methodology and
     prior audit coverage.




                                          2
            DoD Internet Access, Practices, and
               Policies
            DoD issued privacy and data collection policy on DoD public web sites
            and took steps to validate compliance with OMB guidance on privacy.
            However, for 400 DoD Internet web sites reviewed, we identified:

            •   128 persistent cookies, of which 38 were third-party commercial
                cookies, and 7 contained known web bugs.

            •   100 sites that did not contain a privacy notice.

            •   61 sites that requested voluntary personal information and did not
                contain a privacy notice.

            Further, DoD was unaware of how commercial companies store, protect,
            and market information collected from DoD web sites. Noncompliance
            with DoD and OMB policies occurred because the Services and DoD
            Components did not adequately disseminate guidance on privacy
            disclosure and on the use of collection devices to the web masters of
            DoD Internet sites, did not adequately educate the web masters on
            identifying collection devices, and did not have a process to verify
            compliance with DoD and OMB policy. As a result, DoD and
            commercial companies supporting the web sites knowingly and
            unknowingly collected information on individuals without providing
            adequate disclosures in a privacy statement and without the approval of
            the Secretary of Defense. We did not specifically identify the type of
            information collected.

DoD Implementation and Verification of Privacy Policies
     Section 552a of the Privacy Act of 1974. Section 552a, title 5, United States
     Code of the Privacy Act of 1974 (the Act) states that individuals have a right to
     access agency records containing information about themselves and the right to
     request amendments to the records that are inaccurate, irrelevant, untimely, or
     incomplete. The Act applies only to Federal records that are retrieved by name
     or other personal identifier. The Act requires agencies to inform an individual
     of the authority for collecting, whether disclosure by the individual is voluntary
     or mandatory, the principal purposes for which the information will be used, the
     routine uses that may be made of the information, and the consequences of not
     providing the information. In addition, agencies must establish appropriate
     administrative, technical, and physical safeguards to ensure the security and
     confidentiality of the records

     DoD Privacy Guidance. DoD Memorandum, “Privacy Policies and Data
     Collection on DoD Public Web Sites,” July 13, 2000, requires the display of a
     privacy notice at principal web sites and where substantial personal information
     is collected from visitors. Privacy notices should inform visitors that the web
     site is public information, the Government collects information for statistical
     purposes, and it uses software programs to monitor for prohibited activities. In

                                          3
          addition, the privacy statement should provide a point of contact for the web
          site. The policy guidance prohibits the use of web technology to collect user-
          identifying information to build profiles on individuals, and prohibits the use of
          persistent cookies. It permits the use of web technology to obtain non-user-
          identifying information only if visitors are advised in the privacy statement of
          what is being collected, and why and how it would be used. In addition, the use
          of a persistent cookie must be personally approved by the Secretary of Defense.
          The memorandum requires Components to review their privacy practices and
          take corrective action to comply with policy.

          Verification of OMB Guidance. To verify compliance with the July 13, 2000,
          DoD Memorandum, the Director, Administration and Management, Office of
          the Secretary of Defense, contacted DoD agencies, including the Services, to
          request that they report the status of their web sites’ compliance with DoD
          policy and OMB guidance by October 2000. Twenty responded in writing that
          they had taken steps to ensure that their sites conformed to guidance. On
          December 14, 2000, the Office of the Assistant Secretary of Defense
          (Command, Control, Communications and Intelligence) reported to OMB that
          DoD Components’ web sites complied with privacy guidance or, if not, that
          corrective actions were being taken to bring them into compliance.

          DoD issued policy, obtained written confirmation of compliance, and reported
          to OMB that DoD Components complied with OMB guidelines on privacy
          policies for DoD Internet web sites.
Sample of DoD Internet Web Sites
          Using the January 10, 2001, listing of DoD Internet web sites included in the
          Government Information Locator Service, we selected 400 DoD Internet web
          sites from a universe of 2,608 registered sites to review for the presence of
          persistent cookies, third-party commercial cookies, and web bugs; for privacy
          statements at Internet sites and at information collection locations; and for
          measures taken to safeguard the information collected. The Government
          Information Locator Service is the single entry point where the public can
          locate, access, and obtain DoD information. The universe and sample by
          Component are shown in Table 1.

          Table 1. Universe and Sample of DoD Internet Sites Registered with the
          Government Information Locator Service
                               Component             Universe            Sample
                               Army                    414                 90
                               Navy                  1,441                110
                               Air Force               416                 90
                               Marines                 172                 60
                               Other1                  165                 50
                                 Total               2,608                400
_________________________________
1
Others include the Office of the Secretary of Defense, Defense agencies, the Unified Commands, and
DoD Field Activities




                                                 4
Involuntary Collection of Personal Information
     Collection Devices. At the 400 DoD web sites sampled, we identified
     128 persistent cookies, including 38 placed by a commercial web site and
     7 containing known web bugs. Table 2 displays by Service the number of web
     sites sampled, the number of persistent cookies, third-party cookies, and known
     web bugs.

       Table 2. Sample of DoD Web Sites and Numbers of Sites That Contain
        Persistent Cookies, Third-Party Commercial Cookies, and Web Bugs

                                                      Third-Party
                                        Persistent    Commercial
         Component          Sample       Cookies       Cookies         Web Bugs
         Army                 90           26              9              0
         Navy                110            40            11              2
         Air Force            90           29              6              2
         Marine Corps         60           18              8              3
         Other                50           15              4              0
          Total              400           128            38              7

     Persistent and Third-Party Cookies. We performed tests using the Microsoft
     Internet Explorer to identify persistent cookies. Where a persistent cookie
     appeared, we made a second visit to the site using a different computer at a
     different time to confirm the finding. During both visits, we documented the
     time and the date to validate the cookie. We identified 128 persistent cookies of
     which 38 cookies, or 30 percent, were third-party cookies placed by commercial
     web sites outside the DoD and Government community. Although we identified
     persistent cookies, DoD officials stated that the Secretary of Defense had not
     granted permission for any of the Services or DoD agencies to use them on DoD
     Internet web sites.

     Web Bugs. At the 400 sites visited, we used a software program “Bugnosis
     Beta 5,” provided by the Privacy Foundation, University of Denver, to profile
     DoD web sites for web bugs. A rating of 1 or more indicates that a web bug
     was probably in use at the site. Using the software program, we profiled
     30 potential web bugs. After an analysis of the web site’s software code, only
     7 were determined to be known web bugs. However, based on the information
     available at the web site, we could not determine whether the 7 web bugs
     collected personal information. Two of the 7 had a DoD Internet web address
     with the suffix of “.MIL.” The other 5 sites were commercial web addresses.

     Web Masters and Involuntary Collection of Personal Information. We
     visited 36 web masters who managed the sites where we found 36 cookies and
     3 known web bugs. A web master manages the web site and is responsible for
     the editorial content, quality, and style of the site. Of the 36 cookies, 14 were
     third-party cookies set by a commercial company. We asked the web masters
     whether they were aware of the cookie or web bug and whether they were aware
     of the DoD policy on these collection devices. Of the 36 webmasters, 10 were




                                         5
aware of the collection device at those sites. Table 3 shows the number of web
masters by Component who were aware of the cookie or web bug and their
knowledge of the DoD policy.

           Table 3. Web Masters Aware of the Collection Device
                                            Aware Of DoD Policy
          Component          Number           Yes            No
          Army                 3               1              2
          Navy                 1               0              1
          Air Force            3               1              2
          Marine Corps         2               0              2
          Other                1               1              0
           Total              10               3              7

Seven web masters were aware of the collection devices but were unaware of
DoD policy. As a result, they did not review their web site for compliance.
Three web masters who were aware of the collection device and DoD policy
took no action to remove the device or ask permission to retain it. The web
master for an Army site stated that he used a commercial service to locate his
web site while awaiting a military address. The commercial service set a
persistent cookie on visitors. The web master attempted to remove the cookie
but could not because the site was controlled by a commercial company. After
our visit, the web master agreed to conform his web site to DoD policy. An Air
Force web master stated that a persistent cookie was placed by another Air
Force base using a software program called “web trends,” which provides web
masters with statistical information on web site visitors. Since our visit, web
site officials removed the persistent cookie from the program. The web master
for a Defense Logistics Agency site stated that he obtained permission to use a
persistent cookie; however, the Defense Logistics Agency granted permission to
use a session cookie only. Officials agreed to remove the persistent cookie.
Of 36 web masters, 26 were unaware of the collection device at their sites.
Table 4 shows the number of web masters by Component who were unaware of
the cookie or web bug and their knowledge of the DoD policy.

          Table 4. Web Masters Unaware of the Collection Device
                                               Aware Of DoD Policy
         Component          Number               Yes           No
         Army                 5                   4             1
         Navy                 9                   5             4
         Air Force            6                   2             4
         Marine Corps         2                   0             2
         Other                4                   3             1
          Total              26                  14           12

Fourteen web masters were unaware of a cookie or web bug on their site but
were aware of the policy; however, they did not take steps to ensure that their
web site was compliant. The other 12 web masters were not aware of the


                                   6
    cookie or web bug and were unaware of the policy. Consequently, they took no
    action. Web masters complained that they were not provided guidance on the
    DoD policy or instructions to identify persistent cookies or web bugs.

    All of the web masters visited agreed to remove the persistent cookie, including
    commercial third-party cookies, web bug, or remove the web site from the
    Internet. The web masters agreed to perform reviews to verify that corrective
    actions have been taken.
    Without knowing how to identify the persistent cookie and the DoD policy on
    collection devices, web masters cannot be assured that their sites are in
    compliance with DoD and OMB policy. The DoD Components must distribute
    DoD policy to each web master, provide instructions to identify collection
    devices, require them to eliminate cookies or third-party cookies that are not
    approved, and verify that web masters have complied with policy.

Privacy Statements At Web Sites and Voluntary Collection
  Locations
    Privacy Statement. Of the 400 DoD Internet web sites that we sampled, we
    identified 100 that did not contain a privacy statement. Of those 100 web sites,
    34 contained a security statement instead of a privacy statement stating that it
    was a DoD site and that DoD would monitor visitors to ensure authorized use
    only. For the 34 sites that placed persistent cookies on visitors, the security
    notice did not disclose what information was collected, why it was collected,
    and how it would be used.

    In addition, 80 of the 400 web sites gathered voluntary personal information
    from visiting guests. For example, information solicited were names, e-mail
    addresses, office addresses, and telephone numbers. Of these 80 collection
    sites, 61, or 76 percent, did not contain a required privacy statement at the
    collection site as required by DoD policy. Table 5 displays the sample of web
    sites by Component, the number of web sites without a privacy statement, the
    number that collected personal information, and the number without a privacy
    statement at the personal collection location.




                                         7
 Table 5. Sample by DoD Component of Government Internet Web Sites,
    Without a Privacy Statement at the Web Site and at the Personal
                          Collection Location

                                Missing       Web Sites that
                                Privacy          Collect         Missing Privacy
                              Statement at     Voluntary           Statement at
   Component        Sample     Web Site        Information      Collection Location

   Army               90          19                18                   14
   Navy              110          28                19                   12
   Air Force          90          26                22                   18
   Marine Corps       60          16                10                    9
   Other              50          11                11                    8
    Total            400         100                80                   61

We visited 32 web masters who did not place a privacy statement at the web site
and the data collection site, or who placed a security statement at the web site
while employing cookies or web bugs. We asked them if they were aware of
the missing privacy statement and aware of the DoD policy. Six of the 32 web
masters indicated they were aware that their web site did not contain a privacy
statement; however, they also stated that they had not been informed of the DoD
policy to include a privacy statement on the web site. All agreed to take
corrective action and include the necessary privacy notification.

Twenty three of 32 web masters stated that they were unaware of the missing
privacy statement. We asked them whether they were aware of the DoD policy.
Ten of the 23 web masters were aware of the DoD policy but did not review
their site to ensure compliance because they thought their web sites already met
the policy requirements. The other 13 were unaware of the policy and the
missing statement and consequently took no action. Table 6 is a summary of the
23 web masters’ knowledge of DoD policy on privacy statements.

          Table 6. Web Masters Knowledge of Privacy Statements

                                        Aware Of DoD Policy
     Component          Number            Yes            No
     Army                 4                2              2
     Navy                 4                1              3
     Air Force            6                3              3
     Marine Corps         4                0              4
     Other                5                4              1
      Total              23               10            13

The remaining three web masters visited had web sites that did not contain a
privacy statement at the entry page and at the data collection location. Officials
stated that they were aware of the disclosure requirement at the entry page but
not at the collection site. None of the three web masters made their web site
compliant until our visit.



                                    8
    The Services and DoD agencies did not distribute the policy to all of the web
    masters. The web masters should be aware of the DoD policy on privacy
    statements and disclosure requirements. They must also review their web sites
    and collection locations for the presence of a privacy statement after they
    establish or revise the web site or after DoD issues new policy. In addition,
    DoD must verify compliance.

Security Over Information Collected
    Security of Voluntary Information. We visited 17 web masters to review the
    security of the voluntary personal information collected. We discussed data
    access, computer logs, corrections to inaccurate information, and third-party
    collection activities. We also asked whether visitors could request correction to
    data submitted, whether information collected was combined with other personal
    information and whether information was sold or given away.

    The web masters responded that they limited access to locations that stored
    personal information. All except one had procedures to limit access to locations
    that stored personal information, to protect voluntary information from
    unauthorized access through the use of passwords, and to delete information
    from storage locations when no long required. A Navy web master was
    uncertain how the voluntary information collected was stored and protected
    because the voluntary information was transferred to a centralized server outside
    his control; however, he agreed to determine what the procedures were for
    storage and protection. Web masters permitted corrections to voluntary
    information collected from visitors if inaccuracies existed. All stated that they
    had not sold or combined the information with other personal data to maintain
    or build profiles on visitors.

    Although controls over the access to and use of voluntary information were
    adequate to ensure that the privacy of individuals was protected at DoD-
    controlled collection storage locations, no controls were present at 3 of 17 sites
    where web masters allowed third parties to use persistent cookies to collect
    involuntary information. At those sites, the web masters did not know what
    information the third party collected, how it was stored, and had little assurance
    that the information was protected and had not been sold or given away.

Conclusion
    DoD privacy guidance requires the display of a privacy notice on principal web
    sites and at locations where substantial personal information from visitors is
    collected. It prohibits using web technology to collect identifying information;
    build profiles on individuals; and use persistent cookies except when visitors are
    advised of what is being collected, why, and how it will be used. The Secretary
    of Defense must approve the use of persistent cookies.

    Although the DoD guidance was adequate, collecting and obtaining information
    on web site visitors by collection devices was present at 128 sites, or 32 percent
    of the sites sampled. The continued lack of privacy statements at web sites and
    collection locations and the use of third-party cookies indicated that previous
    DoD feedback to OMB that requisite policies had been fully implemented was

                                         9
    premature. Also, DoD has inadequate assurance that the involuntary collection
    of personal information by commercial companies at DoD web sites is
    safeguarded and not sold or given away after it is collected.

    All DoD web masters must be made aware of the DoD and OMB policy that
    ensures the rights of individuals who visit DoD web sites will be protected.
    DoD web masters must be held accountable for compliance.

    All 36 web masters visited whose sites contained collection devices agreed to
    remove the persistent cookies, including commercial third-party cookies, and
    web bugs, or remove the web site from the Internet. The web masters also
    agreed to verify that corrective actions were taken.

Management Comments on the Finding and Audit Response
    Management Comments. The Deputy Assistant Secretary of Defense (Security
    and Information Operations) who responded for the Assistant Secretary of
    Defense (Command, Control, Communications and Intelligence), stated that the
    Heads of Components are responsible for compliance to policy, and they
    generally delegate it to the sponsoring organization’s commander and not to the
    web masters. He agreed that DoD used persistent cookies but that our report
    did not necessarily support a conclusion that the persistent cookies were being
    used to collect user-identifying information. He also stated that the updated
    policy following issuance of the OMB policy now prohibits all uses of persistent
    cookies without the specific waiver.

    Although not required to comment, the Director, Defense Privacy Office, stated
    that he believed the congressional tasking was designed to determine whether
    Federal agencies were knowingly using web technology to collect information
    on visitors to Government public web sites and using it in a prohibited manner.
    He stated that the report did not address this aspect. He commented that the
    report stated that most web masters were unaware of the collection activity,
    which he believed constitutes an act of nonfeasance and not malfeasance. The
    Director also commented that the report provided no indication that those who
    were aware of the collection activity used the information to build profiles or
    track visitors, and that the report should clarify those results in its conclusion.
    He further stated that it was assumed that the web sites visited constituted a
    principal web site, a known major entry point, or a site where substantial
    personal information was collected. Many users bypass the major entry points
    where the privacy and security notices are posted. However, a visitor can
    review the privacy notice of the web site by visiting the major entry point where
    those notices are posted. The Director recommended that the report be revised
    to recognize recent policy changes regarding the use of persistent cookies and
    voluntary collection of information.

    Audit Response. The June 22, 2000, OMB memorandum stated that because
    of the unique laws and traditions about Government access to citizens’ personal
    information, the presumption should be that “cookies” will not be used at
    Federal web sites. The memorandum further stated that particular privacy
    concerns may be raised when use of web technology (such as persistent cookies)
    can track the activities of users over time and across different web sites.

                                        10
Further, these concerns are especially great where individuals who have come to
Government web sites do not have clear and conspicuous notice of any such
tracking activities. The September 5, 2000, letter from OMB further clarified
the June 2000 memorandum and stated that persistent cookies should not be used
unless four conditions were met which included the approval by the head of the
agency. Our review did not specifically identify what was collected. However,
our review focused on whether collection devices, such as persistent cookies,
existed at the web sites. As stated in the Office of Management and Budget
September 5, 2000, letter, even if persistent cookies did not themselves contain
personally identifiable information, such cookies can often be linked to a person
after the fact, even where that was not the original intent of the web master.
The Office of Management and Budget policy clearly applies to all uses of
persistent cookies because by their very nature those cookies collect some type
of information based on visits made by individuals to a web site. Also, the
Deputy Assistant Secretary’s response indicated that DoD policy had been
updated following the issuance of OMB policy, and prohibited all uses of
persistent cookies without a specific waiver. However, the April 26, 2001,
policy update placed the policy on the use of persistent cookies under
section 12.2.3, “Automated Collection of User-Identifying Information on
Publicly Accessible Web Sites.” By doing so, the policy on the use of persistent
cookies appears to apply only to user-identifying information. The OMB policy
clearly intended the policy on the use of persistent cookies to apply to both user-
identifying and non-user-identifying information. Management comments were
generally consistent with OMB policy; however, the April 26, 2001, policy
update was not. Accordingly, we have added a recommendation to require DoD
to correct its policy on the use of persistent cookies.

With respect to the Director’s comments on the Internet web sites reviewed, we
selected a sample of DoD web sites listed in the Government Information and
Locator Service, which is the single entry point where the public can locate,
access, and obtain DoD information.

We made changes to the report based on other comments made by the Deputy
Assistant Secretary and the Director. Those changes are referenced in the
Management Comments section of the report.




                                     11
Recommendations, Management Comments, and Audit
  Response
    Renumbered, Revised and Added Recommendation. As a result of
    management comments, we revised the recommendation to include the Defense
    Privacy Office to recognize its role in ensuring privacy policy compliance. We
    also added Recommendation 2. to correct the DoD policy concerning the use of
    persistent cookies.

    1. We recommend that the Assistant Secretary of Defense (Command,
    Control, Communications and Intelligence), in consultation with the Defense
    Privacy Office, require the DoD Components to report on what they have
    done to:

          a. Distribute DoD privacy and data collection policy to their web
    masters.

            b. Provide their web masters with instructions to identify data
    collection devices.

           c. Eliminate third-party cookies and other data collection devices.

          d. Post privacy notices at major entry points to a site and at sites
    where substantial personal information is collected from the public.

           e. Hold web masters accountable for compliance with DoD and
    Office of Management and Budget policy on a continuing basis.

    2. We recommend that the Assistant Secretary of Defense (Command,
    Control, Communications and Intelligence) revise the DoD Web Site
    Administration Policy to clearly show that the policy on the use of persistent
    cookies applies to non-user-identifying information and user-identifying
    information.

    Management Comments. The Deputy Assistant Secretary of Defense (Security
    and Information Operations), responding for the Assistant Secretary of Defense
    (Command, Control, Communications and Intelligence), partially agreed with
    the recommendation. He set an August 31, 2001, date for DoD Components to
    complete actions to implement the recommendations. The Director, Defense
    Privacy Office, stated that the recommendation should be revised to include the
    Defense Privacy Office because it has a role in ensuring that the DoD
    Components comply with privacy policy.

    Audit Response. The Deputy Assistant Secretary comments were responsive to
    Recommendation 1. We also ask for comments on Recommendation 2. that was
    added.




                                      12
Appendix A. Audit Process

Scope and Methodology
    Audit Type, Dates and Standards. We performed this economy and efficiency
    audit from December 2000 through May 2001, in accordance with auditing
    standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. We judgmentally selected 400
    DoD agencies, the Office of the Secretary of Defense, and Service web sites
    registered in the Government Information Locator Service. We relied on
    computer-processed data from the Government Information Locator Service
    without performing tests of system general and application controls to confirm
    the reliability of the database. However, not establishing the reliability of the
    database will not affect the results of our audit. We relied on judgmental
    sampling procedures to develop conclusions on this audit.

    We reviewed and evaluated web sites of the Army, Navy, Air Force, Marine
    Corps, and other DoD agencies. We compared those sites to OMB and DoD
    policies on privacy, specifically on collecting, creating, reviewing, and sharing
    with third parties, personally identifiable information about individuals and their
    access and viewing habits at Government and nongovernment sites.

    We used Microsoft Internet Explorer to assist us in identifying and validating
    cookies, and used a software program “Bugnosis Beta 5,” provided to us by the
    Privacy Foundation to assist us in identifying web bugs. We conducted
    discussions with DoD Components and the Services to evaluate whether web
    site administrators were aware of the DoD and OMB policies on personal
    information. We attempted to determine what information was being collected,
    why it was being collected, how it was stored, and whether personal information
    was sold or provided to any party outside the Government for any purpose. For
    the most part, where we identified a collection device, we could not determine
    what was being collected or whether it was sold or given away to any party.
    Because many of the web masters we contacted were unaware of the collection
    device, we could not in many cases, determine how it was stored and why it was
    collected. We did not evaluate the management control program as it related to
    the overall objectives due to the narrow time frame provided by Congress to
    issue a report.

    Use of Technical Assistance. The Technical Assessment Division, Audit
    Followup and Technical Support Directorate, Quantitative Methods Division,
    and the Information Systems Directorate, Office of the Inspector General,
    provided expertise in identifying web bugs. The Technical Assessment Division
    reviewed cookies and other means used to obtain personal information. The
    Quantitative Methods Division assisted in the judgmental selection of our
    sample. The Information Systems Directorate reviewed source code and other
    information at each site where we received a numerical rating of 1 or greater
    and concluded that there were 7 web bugs.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

                                         13
      General Accounting Office High-Risk Area and Corporate-Level Goals. The
      General Accounting Office lists information assurance as a high-risk area.
      Although the Secretary of Defense annually establishes DoD-wide corporate-
      level goals and performance measures to address the requirements of the
      Government Performance and Results Act, the Act does not currently provide
      corporate-level goals for information assurance.

Prior Audit Coverage
General Accounting Office

      During the last 5 years, GAO issued two reports on the subject of Internet
      privacy.

      GAO Report No. GAO-01-147R “Internet Privacy: Federal Agency Use of
      Cookies,” October 20, 2000

      GAO Report No. GAO/AIMD-00-296R, “Internet Privacy: Comparison of
      Federal Agency Practices With FTC' Fair Information Principles,”
      September 11, 2000




                                         14
Appendix B. Revision to DoD Web Site
            Administration Policy




`




                 15
16
17
18
19
20
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
Deputy Chief Financial Officer
Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and
   Intelligence)
Director, Administration and Management

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)

Other Defense Organizations
Director, Defense Contract Audit Agency
Defense, Finance and Accounting Service
Director, Defense Logistics Agency
Director, Defense Information Systems Agency
Washington Headquarters Service
   Director, Defense Privacy Office

Non-Defense Federal Organization
Office of Management and Budget
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Subcommittee on Treasury and General Government, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Subcommittee on Treasury, Postal Service and General Government, Committee on
  Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on Government
  Reform




                                           22
Office of the Assistant Secretary of Defense
(Command, Control, Communications and
Intelligence) Comments




                    23
24
     Final Report
      Reference




     Revised




     Revised




25
               Defense Privacy Office Comments
Final Report
Reference




Revised




                               26
     Final Report
     Reference




     Add page 2




     Revised




     Revised




27
Final Report
Reference




Revised




Revised




               28
     Final Report
     Reference




     Revised




     Added




     Added




29
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Mary Ugone
Raymond A. Spencer
Thomas S. Bartoszek
Lisa E. Novis
Thomas J. Hilliard
Thelma E. Jackson
Rudolf Noordhuizen
Gary B. Dutton
Chanda D. Lee
Sarah L. Brownwell
Trisha L. Staley
Stacey L. Kreinbrook
Mandi L. Markwart
Brian K. Jacques
Jenshel D. Marshall
